                                        ADVISORY




RECOVERY OVERSIGHT ADVISORY
Youth Related Recovery Act Projects




Report No.: RO-B-MOA-098-2011         December 2010
                    OFFICE OF
                    INSPECTOR GENERAL
                    U.S.DEPARTMENT OF THE INTERIOR



To:                  Chris Henderson
                     Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:                Robert A. Kno     .       ~ ~.
                     Assistant Ins ctor General ~Rec\,ery Oversight

    Subject:         Recovery Oversight Advisory - Youth Related Recovery Act Projects
                     Report No. RO-B-MOA-098-2011

        This advisory, regarding Recovery Act projects that employed youth, is part of our
ongoing efforts to oversee and ensure the accountability of funding appropriated to the U.S.
Department of the Interior (Department) in the American Recovery and Reinvestment Act of
2009 (Recovery Act). Despite guidance within the Recovery Act itself, and encouragement from
the Secretary to employ youth wherever possible, we encountered challenges quantifying youth
specific Recovery Act projects and learned that bureaus did little to no tracking of how many
youth were employed. Inconsistent measures, coupled with the late timing of guidance specific
to hiring youth under the Recovery Act, meant the Department likely missed an opportunity to
use Recovery Act funds to galvanize its commitment to youth involvement.

       We will post this advisory on our Web site (www.doioig.gov/recovery/) and
Recovery.gov. No action or response is requested for this advisory. Information contained in this
advisory may also be included in our semiannual reports to Congress. We performed our work in
accordance with the Quality Standards for Inspections adopted by the Council of the Inspectors
General on Integrity and Efficiency. Please contact me if you have any questions.

Background

        Youth between the ages of 16 and 24 have seen unemployment rates increase in recent
years from 10.8 percent in 2007 to 19.1 percent in 2010. 1 One of the Recovery Act' s general
provisions states that the Secretary of Interior, "shall utilize, where practicable, the Public Lands
Corps, Youth Conservation Corps, Student Conservation Association, Job Corps and other
related ~artnerships with Federal, state, local, tribal or non-profit groups that serve young
adults."

        Educating, engaging, and employing youth in conservation activities has been a long-held
tradition within the Department. The Secretary rejuvenated the Department's commitment to
youth involvement by creating the 21 5t Century Youth Conservation Corps initiative and
including it as part of the Fiscal Year 2010 budget. In his priority message to the Department on
May 4, 2009, the Secretary also encouraged bureaus to employ youth wherever possible as they
implement the Recovery Act.

I   Employment and Unemployment Among Youth - Summer 2010, USDL· 10- I 175, August 27, 20 I O.
2   American Recovery and Rein vestment Act of 2009, Pub. Law No. I 11-5, § 702.

                                        Recovery OverSight Office I Washington, DC
        Our goal for this review was to determine to what extent Recovery Act funds were used
to galvanize the Department’s youth initiative and employ youth. Specifically, we sought to
identify the number and type of Recovery Act projects that utilized youth, the amount of funding
that bureaus obligated for youth projects, to whom the money was obligated, and the number of
youth employed. We analyzed Recovery Act project lists and Departmental financial data,
interviewed staff from the newly created Office of Youth in Natural Resources, and spoke to
officials from the three bureaus with the most youth related Recovery Act projects: the Bureau of
Land Management (BLM), the National Park Service (NPS), and the U.S. Fish and Wildlife
Service (FWS).

Youth-Specific Recovery Act Projects

        We encountered challenges quantifying youth-specific Recovery Act projects because the
Recovery Act project lists provided to the Department did not consistently track youth-specific
projects over time, and the bureaus did not consistently track this information.

        The number of Recovery Act projects that involve youth from the start of the Recovery
Act to the time we conducted our review was fewer than what bureaus originally reported in
early project lists. On an initial list from May 2009, 356 projects were identified as meeting the
Secretary’s youth initiative, with BLM, NPS, and FWS having the highest number of youth
projects (Figure 1). One year later, only 321 of those projects remained on the project list. We
could not determine if these projects were still related to the Secretary’s youth initiative because
that specific information was no longer being captured. Information provided by BLM, NPS, and
FWS, indicated that not all of the 321 projects on the June 2010 list were related to youth,
despite having been originally identified as such.

                                    Bureau                                              May 2009                  June 2010
    Bureau of Indian Affairs                                                               32                         31
    Bureau of Land Management                                                             106                        106
    U.S. Bureau of Reclamation                                                             15                         11
    National Park Service                                                                 146                        117
    U.S. Fish and Wildlife Service                                                         47                         46
    U.S. Geological Survey                                                                 10                         10
    Grand Total                                                                          356                        321

Figure 1. Number of Youth Projects by Bureau

Recovery Act Dollars Obligated for Youth Projects

        We also analyzed Departmental financial data to determine the types of projects receiving
Recovery Act funds, what proportion of those dollars were obligated for youth projects, and who
received the funds. According to financial data downloaded as of July 23, 2010, the Department
obligated $50,326,426 in Recovery Act funds for youth projects. 3 A total of $33,188,955 was

3
  Data from the Departmental financial system as of July 23, 2010, did not identify youth projects specifically. Rather, we
identified potential youth projects based on a variety of criteria, including: vendor names that contained the words “Youth”,
“Student”, “Corps”, “Conservation”, “University”, or “College”; project types with “youth” specifically in their title (e.g. Habitat
Restoration – Youth Programs); and on project information provided to us by BLM, FWS, and NPS.
                                                                                                                                  2
obligated for Habitat Restoration and Trails (Figure 2).

                                                                       Obligations
                                                          Total                       Percent Youth
                 Project Type                                          for Youth
                                                        Obligations                      Projects
                                                                        Projects

    Abandoned Mines                                      $47,961,303     $3,963,654      8 percent


    Deferred Maintenance                               $270,816,521      $1,940,424      1 percent


    Earthquake                                           $29,277,587     $4,816,861     16 percent


    Emergency Drought Relief                             $20,990,659        $1,842      0 percent4


    Habitat Restoration                                  $68,264,587    $17,547,785     26 percent


    Trails                                               $27,357,825    $15,641,171     57 percent


    National Mapping Program
                                                         $14,448,220     $1,724,506     12 percent
    Enhancements


    Renewable Energy Authorization                       $38,574,097      $279,609       1 percent


    Roads & Bridges Deferred
                                                         $25,657,111      $192,759       1 percent
    Maintenance


    Volcano                                              $13,350,633     $4,217,815     32 percent


    Grand Total                                      $556,698,543      $50,326,426      9 percent


Figure 2. Recovery Act moneys obligated for youth projects.

       We determined that 57 percent of total obligations for trails projects were youth related
and came from BLM and NPS. The Student Conservation Association, a youth-oriented
4
    Figures in this column are rounded to the nearest percentile.
                                                                                                      3
conservation group that has had a long-standing relationship with the Department, was the single
largest recipient.




 Figure 3. Students working on Glacier Basin Trail at Mount Rainier National Park. Source: OIG photo.

        Recovery Act dollars obligated for youth habitat restoration projects came from BLM and
FWS, $14,399,540 and $3,148,245, respectively, and represent 26 percent of the Department’s
total obligations for this type of work. BLM’s obligations were spread across a wide variety of
recipients. FWS obligations were predominantly payroll actions indicating direct hires through
programs such as the Youth Conservation Corps, the Student Temporary Employment Program,
and the Student Career Experience Program.

        Thirty-two percent of Volcano projects (upgrades to the National Volcano Early Warning
System by the U.S. Geological Survey) were obligated to universities who employ students,
among others, for the work. The University of Alaska, Fairbanks was the largest recipient for
these projects, receiving $2.5 million.

Youth Employed by the Recovery Act

        With the release of funds coming not long after the Department’s renewed commitment
to youth involvement, the Recovery Act could have served as a catalyst to increase youth
employment, but evidence that it actually did so is only anecdotal. When we asked BLM, NPS,
and FWS officials if the Recovery Act enabled them to hire more youth than they normally
would, they all stated that it did. When we asked how many youth their Recovery Act projects
employed, we learned that the methods they used for collecting this information varied widely.
Complicating matters was the fact that Recovery Act recipients were not required to report job
creation numbers on projects less than $25,000. For those awards that required reporting, not all
recipients actually reported that information, and a specific distinction for youth was not
required. The Office of Management and Budget also changed job reporting requirements after
                                                                                                        4
the first quarter of reporting, further rendering futile any attempt to accurately measure the
number of youth employed by the Recovery Act.

        Additional factors complicated the bureaus’ efforts to employ youth. There was
confusion about whether the Recovery Act’s Davis-Bacon labor standards would inhibit the
Department’s ability to use the Youth Conservation Corps, Student Conservation Association,
and other related partnerships that serve youth, and the issue was not resolved until the end of
May 2009. Departmental guidance concerning cooperative agreements with youth organizations
under the Recovery Act was not released until mid-June 2009, and the master cooperative
agreement with the Student Conservation Association was not signed until July 2009. Summer is
the prime season for hiring youth, so the Department likely missed an opportunity to use the
Recovery Act to truly galvanize its commitment to youth involvement.

         We are encouraged, though, by the establishment of the Office of Youth in Natural
Resources and the creation of the Departmental Youth Task Force, and hope they continue their
efforts to centralize policy and establish meaningful measures related to youth employment and
engagement. Had these measures been firmly established prior to the Recovery Act, the
Department might have been in a better position to fully maximize youth participation during
implementation.

cc:    Deputy Secretary, U.S. Department of the Interior
       Director, Office of Youth in Natural Resources, U.S. Department of the Interior
       Director, Bureau of Land Management
       Director, U.S. Fish and Wildlife Service
       Director, National Park Service
       Director, U.S. Geological Survey
       Assistant Secretary, Policy, Management, and Budget
       Director, Office of Acquisition and Property Management
       Acting Director, Office of Financial Management
       Recovery Coordinator, Bureau of Land Management
       Recovery Coordinator, U.S. Fish and Wildlife Service
       Recovery Coordinator, National Park Service
       Recovery Coordinator, U.S. Geological Survey
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary
       Audit Liaison, Bureau of Land Management
       Audit Liaison, U.S. Fish and Wildlife Service
       Audit Liaison, National Park Service
       Audit Liaison, U.S. Geological Survey




                                                                                                 5
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
